CERTIFICATE OF SERVICE
NO. TBD
Columbia MHC East, LLC, et al.
Petitioners,
v.
Melody Stewart, et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
COLUMBIA MHC EAST, LLC, ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Zachary Marchal Holscher
Office of the Attorney General
30 E. Broad Street
16th Floor
Columbus, OH 43215
(614) 466-2872
Counsel for Judges Stewart,
McCormack, and Blackmon

Werner L. RaoulMargard, III
Assistant Attorney General
Office of the Attorney General
30 E. Broad Street, 16th Floor
Columbus, OH 43215
(614) 466-4395
Counsel for Public Utilities Commission of Ohio

Lucas DeDeus

January 4, 2021
SCP Tracking: Lucas-3512 Kapalua Way-Cover White

